March 31, 2009

THOMAS G. DAY
SENIOR VICE PRESIDENT, INTELLIGENT MAIL AND ADDRESS QUALITY

ROSS PHILO
EXECUTIVE VICE PRESIDENT, CHIEF INFORMATION OFFICER

SUBJECT: Audit Report – Intelligent Mail Barcode Project Planning and Application
         Development Life Cycle (Report Number IS-AR-09-006)

This report presents the results of our audit of Intelligent Mail® Barcode (IMB) Project
Planning and Application Development Life Cycle (Project Number 08RG029IS000).
The report is the result of a self-initiated audit, which addresses operational risk. See
Appendix A for additional information about this audit.

Conclusion

The U.S. Postal Service was not aware of the significant complexities and extensive
requirements needed for the IMB Full Service-Seamless Acceptance Service
Performance (SASP) Release 1 application when funding was obtained for
development and when project milestones were established. As a result, delays
occurred in the design and build, and test schedules have been compressed. A more
incremental approach to managing such a complex project could help ensure clearer
expectations for the project and a better estimate of required resources and project
milestones. Additionally, better business requirements management could enhance
mailer community acceptance of the IMB Full Service-SASP application and maintain
customer faith in the Postal Service brand. We will report the non-monetary impact
(preserving the integrity of the Postal Service brand) in our Semiannual Report to
Congress.

xxxxxxxxxx xxx xxxx xxx xxx xxxxxxxxx xxxx xx xxx xxxxxxxx xxxxxxxxxxxxx xxx xxxx
xxxxxxxxxxx. Because data that is sensitive to key Postal Service customers will be
processed through this application, it is critical to ensure that security is thoroughly
addressed. Management needs to ensure the Information Systems Security
Representative (ISSR) is engaged in the application development life cycle and the
Certification and Accreditation (C&A) process is completed and all residual risks
identified before deploying the IMB Full Service-SASP Release 1 application. Resolving
Intelligent Mail Barcode Project Planning                                                  IS-AR-09-006
 and Application Development Life Cycle


these issues could provide assurance that all risks and mitigation alternatives have
been thoroughly considered, formally documented, and diligently pursued.

Delays in Finalizing Application Requirements

Extensive business requirements were needed to develop the IMB Full Service-SASP
application; however, management did not anticipate the amount of time needed to
develop and integrate these requirements with the IMB Full Service-SASP Release 1
application. For example:

•   The initial business requirements (dated August 16, 2007) consisted of
    approximately 200 pages, but grew to 5,000 pages as management made significant
    changes in scope and revised and added requirements for the 59 systems that
    interface with the IMB application.

•   The design and build phases were scheduled to start on August 11 and
    October 1, 2008, respectively; however, delays in finalizing requirements resulted in
    these phases not starting until October 1 and November 17, 2008. The Executive
    Sponsor did not finalize and approve the requirements until February 23, 2009.

The Postal Service did not recognize the scope and complexity of developing an
information resource of this magnitude. The original Decision Analysis Report (DAR),
dated October 15, 2007, went through six revisions before the Board of Governors
approved it in July 2008. Although the scope of the project was established in this DAR,
development of the detailed requirements was not started until after the DAR was
approved and funded. Critical complexities were identified during this detailed
requirements development effort. In addition, the Postal Service maintained separate
business and Information Technology (IT) project plans until December 8, 2008 —
5 months prior to the scheduled application deployment — when a unified project
management plan was established.

As a result, the Sales and Marketing Business Systems Portfolio is working under a
compressed time schedule (24 hours a day, 7 days a week) to meet the existing project
milestones. For example, management indicated that System Integration Tests (SIT)1
commenced the week of March 2, 2009, and will finish in 4 weeks as opposed to the
6 weeks originally planned. Additionally, some key features planned for the first release
of the project have been deferred to future releases. By implementing effective
business requirements management, the Postal Service could help ensure mailer
community acceptance of the IMB Full Service-SASP application and maintain
customer faith in the Postal Service brand. See Appendix B for our detailed analysis of
this topic.


1
 SIT validate that the technology solution and its features conform to requirements and design specifications.
Customer Acceptance Tests (CAT) ensure the technology solution satisfies the documented requirements and the
customer approves it. According to management, CAT is scheduled to begin in early April 2009.




                                                        2
Intelligent Mail Barcode Project Planning                                               IS-AR-09-006
 and Application Development Life Cycle


We recommend the Senior Vice President, Intelligent Mail and Address Quality, direct
the Vice President, Business Mail Entry and Payment Technologies, to:

1. Establish an incremental approach for approval and funding for future project
   releases to ensure adequate time is allotted in the project milestones for the design,
   build, and test phases.

Information Security in the Application Development Process

The Executive Sponsor did not formally appoint an ISSR for the IMB Full Service-SASP
application because he was not aware of the policy requirement.2 One of the
responsibilities of the ISSR is to notify the Executive Sponsor, Portfolio Manager, and
Information System Security Officer (ISSO) of any additional security risks or concerns
that emerge during development or acquisition of the information resource. The ISSR’s
involvement during the application development life cycle process could decrease the
risk of security threats and vulnerabilities to confidential and proprietary data.

Corporate Information Security finalized and approved the Business Impact Assessment
(BIA) on January 30, 2009; however, as of March 9, 2009, other key Technology
Solution Life Cycle (TSLC)3 documentation, such as the Security Plan, Risk
Assessment, Security Test and Evaluation Plan, and SIT and CAT plans, had not been
developed and finalized for the IMB Full Service-SASP Release 1 application as
required by policy4 and the C&A process. Management had not finalized these
documents because delays occurred with finalizing the business requirements and, as a
result, the ISSO was reassigned to other projects between July and October 2008.
According to management, they plan to complete all TSLC documentation prior to the
May 11, 2009, deployment of the application.

Policy5 requires management to conduct the C&A process concurrently with the
development of new applications. Without a completed C&A, management has no
assurance that all risks and mitigation alternatives have been thoroughly considered,
formally documented, and diligently pursued. Security for this application is critical to
maintain mailer confidence in the Postal Service’s protection of the business sensitive
data that will reside in this system. See Appendix B for our detailed analysis of this
topic.




2
  Handbook AS-805, Information Security – Draft (dated January 5, 2008), Chapter 2, Security Roles and
Responsibilities, Section 2-2.10, Executive Sponsors.
3
  Handbook AS-805, Chapter 8, Development and Operations Security, Section 8-1, Policy.
4
  Handbook AS-805, Chapter 8, Development and Operations Security, Section 8.5, Information Resource C&A,
Exhibit 8.5.
5
  Handbook AS-805, Chapter 8, Development and Operations Security, Section 8-4.1, What the C&A Process
Covers.




                                                      3
Intelligent Mail Barcode Project Planning                              IS-AR-09-006
 and Application Development Life Cycle


We recommend the Senior Vice President, Intelligent Mail and Address Quality, and
Executive Vice President, Chief Information Officer, direct the Vice President, Business
Mail Entry and Payment Technologies, the Manager, Corporate Information Technology
Portfolios, and the Manager, Corporate Information Security, to:

2. Formally appoint an Information Systems Security Representative, in writing, and
   ensure they are fully engaged in the business requirements throughout the life cycle
   of the Intelligent Mail Barcode Full Service-Seamless Acceptance Service
   Performance application, and document their participation and concurrence on
   security matters.

3. Ensure the Certification and Accreditation process is completed and all residual risks
   are identified and mitigated before deploying the Intelligent Mail Barcode Full
   Service-Seamless Acceptance Service Performance Release 1 application.

Management’s Comments

Management generally agreed with the findings, but did not comment on the non-
monetary impact. They also agreed with recommendations 1 and 2, and partially
agreed with recommendation 3. They recognize the desirable aspects of establishing
an incremental approach for approval and funding to ensure adequate time is allotted in
the project milestones for the design, build, and test phases for future releases.
According to management, they have implemented this approach to ensure a less
compressed schedule for the implementation of Release 2, and to the extent there will
be a Release 3. Further, management has assigned an ISSR to this program and will
ensure the appointment is documented in writing, and their participation and
concurrence reflected, as required, in the official TSLC and C&A process documents by
May 11, 2009. Finally, they will ensure the C&A process is completed and all residual
risks identified. xxxxxxx, xxxxxxxxx xxxx xxx xxxxxx xx xxx xxxxxxxx xxxxx, xxxxxxxxxx
xxxx xxxxxxxxx xx xxx xxxxxxxxxxx xxxx xxxxxx xx xxxxxxxxxx xxxxx xxx xxxxxxxxx xxx
xxxxxxx xxxxxxxxxx xxx xxxxxxxxx xxxxx xxxxxx xx xxxxxxxxxx xxxxxxxxx. See
Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed. We will report the non-monetary impact




                                            4
Intelligent Mail Barcode Project Planning                              IS-AR-09-006
 and Application Development Life Cycle


(preserving the integrity of the Postal Service brand) in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Director,
Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc:     George W. Wright
        Pritha N. Mehra
        Harold E. Stark
        John T. Edgar
        Robert E. Dixon Jr.
        Katherine S. Banks




                                            5
Intelligent Mail Barcode Project Planning                                                  IS-AR-09-006
 and Application Development Life Cycle


                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Senior Vice President, Intelligent Mail and Address Quality, is the executive
sponsor for the IMB project. Intelligent Mail is a comprehensive term that describes the
integration of electronic mailing documentation – intelligent barcodes on all mail and
containers – and scans to track mail at all points in the delivery process. With Intelligent
Mail, the Postal Service plans to transform the value of mail by helping customers
manage business processes, track cash flows, and build and maintain customer
relationships. According to the Postal Service, Intelligent Mail will allow customers to
track mail as it moves through the mail stream. Data concerning mail movement will be
available through every point in the delivery process. For example, mailers and the
Postal Service will know when advertising pieces are delivered, when customer
remittances are mailed, and when problems such as inaccurate addressing or
unreadable barcodes need correction.

The Postal Service currently has a DAR, which includes $63.9 million in capital funding,
to create an infrastructure that will facilitate the 2009 IMB deployment, support the
Service Performance Measurement requirements of the 2006 Postal Accountability and
Enhancement Act, and automate several business mail verification activities.6 The
Postal Service is currently working to deploy the Full Service-SASP Release 1
application by an established deadline of May 11, 2009. The Sales and Marketing
Business Systems Portfolio has developed a project plan that includes project tasks for
completing items under the DAR. In addition, the deadline is tied to the May 2009 rate
increase and has been communicated to the mailer community.

C&A is a formal review process that ensures adequate security is incorporated during
each phase of the project life cycle. The C&A process is required for each information
resource – application or infrastructure component – and consists of seven interrelated
phases that are conducted concurrently with the development and deployment of new
information resources. The objectives of the C&A are to assess threats, define security
requirements and controls, test security solutions, and evaluate the security controls
and processes chosen to protect the information resource.

Information security must be an integral part of the system development life cycle
whether development is done in house, acquired, or outsourced. All development,
acquisition, or integration projects for information resources must follow the TSLC
process or other approved systems development life cycle methodology. The TSLC
phases will have corresponding security activities that must be performed to maintain a
secure environment and comply with Postal Service policies and legal requirements.
The table below shows the TSLC phases and a brief description of each.


6
 The Postal Service recently announced this DAR is being revised to cover only hardware and software for releases
1 and 2 of Full Service-SASP. Any future releases for additional functionality would be covered under a new DAR.




                                                        6
Intelligent Mail Barcode Project Planning                                                IS-AR-09-006
 and Application Development Life Cycle


                                        Table 1: TSLC Phases

              TSLC Phases                                      Description
                                      Defines the high-level business needs and high-level project
             Initiate and Plan                                     plan.
                                      Identifies and documents business requirements needed to
              Requirements                           develop the technology solution.
                                      Creates the technology design (application, security, etc.) for
           Analysis and Design                     developing the technology solution.
                                        Includes the development of the technology components
                   Build                            specified in the design document.
                                      Validate the technology solution and its features conform to
                    SIT                               the requirements and design.
                                         Ensure the technology solution satisfies the customer’s
                   CAT                                 documented requirements.
                                          Ensures that pre-implementation tasks are defined, IT
                                          change management is followed correctly, and post-
          Release Management                       implementation steps are executed.



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if management is administering the IMB IT project
planning and application development life cycle in an effective and efficient manner.7
To accomplish our objective, we reviewed IMB documentation, policies and procedures,
and interviewed key officials representing Business Mail Entry and Payment
Technologies, Corporate IT Portfolios, and Corporate Information Security. We also
reviewed the Sales and Marketing Business System Portfolio’s application development
life cycle process used for deploying the application and examined other materials
deemed necessary to accomplish our objective. The Full Service-SASP Release 1
application documentation we reviewed included project management plans, business
requirements, project change control procedures, and security requirements. Finally,
we reviewed the TSLC process to determine if key C&A documentation was developed
and finalized for Release 1 of the Full Service-SASP application.

We conducted this performance audit from September 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We assessed the reliability
of computer-generated data supporting the auditing findings and concluded the data
was sufficiently reliable to meet our audit objective. We discussed our observations and

7
  Concurrent with this project, a separate OIG project, Intelligent Mail/Seamless Acceptance Project Management
(Report Number MS-AR-09-006, dated March 31, 2009) was being conducted to focus on the project management of
the overall Full Service-SASP project.




                                                       7
  Intelligent Mail Barcode Project Planning                                 IS-AR-09-006
   and Application Development Life Cycle


  conclusions with management officials on March 9, 2009, and included their comments
  where appropriate.

  PRIOR AUDIT COVERAGE

                      Report                  Final Report   Monetary
Report Title          Number                      Date        Impact       Report Results
Intelligent        DA-AR-06-001          December 22, 2005     None     The Postal Service’s
Mail Data                                                               initial requirement for
Acquisition                                                             Intelligent Mail Device
System                                                                  units was reasonable
                                                                        and a competitive vendor
                                                                        solution and shared
                                                                        order strategy allowed for
                                                                        cost-effective unit prices
                                                                        and discounts. However,
                                                                        the OIG expressed
                                                                        concern with possible
                                                                        higher maintenance
                                                                        costs if deployment was
                                                                        delayed further.
Status of         DA-AR-08-005-R              May 28, 2008     None     The Postal Service has
Intelligent                                                             successfully upgraded
Mail Enabling                                                           key mail processing
Infrastructure                                                          equipment and 300
                                                                        Postal Service facilities
                                                                        with additional network
                                                                        capacity. However,
                                                                        clarification of
                                                                        requirements was
                                                                        needed to ensure
                                                                        material handling
                                                                        systems fully support
                                                                        future Intelligent Mail
                                                                        programs.




                                                      8
Intelligent Mail Barcode Project Planning                               IS-AR-09-006
 and Application Development Life Cycle


                              APPENDIX B: DETAILED ANALYSIS

Delays in Finalizing Application Requirements

The Postal Service began developing IMB requirements on August 16, 2007, with a
conceptual document totaling approximately 200 pages. Although the initial DAR was
developed October 15, 2007, this document went through six revisions before the Board
of Governors approved it in July 2008. The conceptual scope of the project was
established in this DAR; however, development of the detailed requirements was not
started until after the DAR was approved and funded.

Critical complexities were identified during this detailed requirements development
process. For example, the Postal Service determined the IMB project would impact 59
different systems. Due to the scope and complexity of the project, requirements
increased by 40 percent, and 70 percent of the original specifications required updates.
This resulted in the expansion of functionalities and increased requirements
documentation to about 5,000 pages.

Also, the original DAR was intended to cover four IMB releases; however, the Postal
Service recently announced they will revise the original DAR to cover only hardware
and software required for Releases 1 and 2. Any future releases with additional
functionality would be covered by a new DAR.

According to the July 14, 2008, Full Service Management Review Meeting document,
the application design and build phases were scheduled to start on August 11 and
October 1, 2008, respectively. However, the actual start for these phases did not occur
until October 1 and November 17, 2008, due to delays in approving the DAR and the
requirements. Additionally, the July 14, 2008, document indicated the requirements
were to be completed by August 8, 2008. However, the Executive Sponsor did not
finalize and approve the requirements until February 23, 2009.

Finally, the Sales and Marketing Business Systems Portfolio is working under a much
shorter time schedule to meet the existing milestones due to the delay in finalizing the
requirements. SIT and CAT schedules were initially compressed from 6 weeks to
5 weeks, and significant overlap now exists between the two test phases. While some
overlap is manageable, SIT testing should be substantially completed before CAT
commences. Additionally, testing and addressing test results for such a complex
application involving 59 systems in a 5-week period will likely be extremely challenging.
During our exit conference, management indicated that SIT and CAT have been further
compressed to 4 weeks each.




                                            9
Intelligent Mail Barcode Project Planning                                                  IS-AR-09-006
 and Application Development Life Cycle


Information Security in the Application Development Process

Information Security

The Executive Sponsor did not formally appoint an ISSR for the IMB Full Service-SASP
application because he was not aware of the policy requirement.

ISSR

The ISSRs are appointed, in writing, by the executive sponsor or the portfolio manager
and are members of the information resource development or integration teams. The
ISSR responsibilities include:8

    •   Promoting information security awareness on the project team.
    •   Ensuring that security controls and processes are implemented.
    •   Notifying the Executive Sponsor, Portfolio Manager, and ISSO of any additional
        security risks or concerns that emerge during development or acquisition of the
        information resource.
    •   Developing or reviewing security-related documents required by the C&A
        process as assigned by the Executive Sponsor.

A contract employee was assigned as the ISSR for the IMB Full Service-SASP
application as noted on the draft BIA; however, the employee was not aware of these
duties and responsibilities and was, in fact, incorrectly listed as the ISSR. Rather,
management advised us that the Manager, Sales and Marketing Business Systems
Portfolio, would be performing the ISSR duties and responsibilities.

ISSO

The ISSO duties include escalating security concerns and forwarding C&A evaluation
reports and supporting documentation to the certifier for review. Also, the ISSO may
recommend additional security requirements during the BIA process to better protect
the information resource against threats and vulnerabilities. The ISSO responsibilities
include:9

    •   Ensuring that a BIA is completed for each information resource.
    •   Ensuring the responsible project manager records the sensitivity and criticality
        designations in the xxxxxxxxxx xxxxxxxxxxx xxxxxxxxxx.
    •   Advising and consulting with executive sponsors and portfolio managers during
        the BIA process so they know the background for (1) baseline security
        requirements that apply to all information resources and (2) the security

8
 Handbook AS-805, Chapter 2, Security Roles and Responsibilities, Section 2-2.28, ISSRs.
9
 Handbook AS-805, Chapter 2, Security Roles and Responsibilities, Section 2-2.29, Information Systems Security
Officers.




                                                       10
Intelligent Mail Barcode Project Planning                                                IS-AR-09-006
 and Application Development Life Cycle


           requirements necessary to protect an information resource based on the
           resource's sensitivity and criticality designation.

The former ISSO had minimal involvement during requirements development for the
IMB Full Service-SASP application. In July 2008, the former ISSO was reassigned to
other Sales and Marketing Business Systems Portfolio projects while management was
waiting for the Board of Governors to approve the DAR. A new ISSO was not appointed
for the Full Service-SASP until October 2008.

The Certification and Accreditation Process

Although management finalized and approved the BIA on January 30, 2009, other key
TSLC documentation, such as the Security Plan, Risk Assessment, Security Test and
Evaluation Plan, and SIT and CAT plans, has not been developed and finalized for the
IMB Full Service-SASP Release 1 application as required by policy and the C&A
process. All final TSLC documentation for information resources must be uploaded to
the TSLC Artifacts Library on the Postal Service’s website. However, we confirmed that
these items had not been posted on the TSLC website as required, and in fact, we
noted that the TSLC Artifacts Library for IMB Full Service-SASP was just created very
recently – on December 3, 2008. We could not even obtain these documents directly
from program officials.

xxx xxxxxx xxxxxxx xxx xxxxxx xxx xxx xxxx xxxxxxx-xxxx xxxxxxxxxxx xxxxxxx xxxxx
xxxxxxxxxx xxx xxx xxxxxxx. xxxxxxx, xxxx xxxxxxxx xx xxx xxxxxxxxxxx, xxxx xx
xxxxxxxxxx xxx xxx, xxxxxxxx xxxx, xxx xxxx xxxxxxxxxx xxxx, xx xxxxxxxx xx
xxxxxxxxx xxx xxxxxxxx xxxx xxxxxxxxxx xxxx xxxxxxxxxx. Postal Service policy10
states that if the level of residual risk is not acceptable, management should implement
further safeguards and security controls to reduce exposure to acceptable levels. The
Vice President of the functional business area and the Vice President, Information
Technology Operations, are jointly responsible for acknowledging and accepting, in
writing, the residual risks inherent with using that information resource or initiating steps
to further mitigate the residual risk. xx xxxx xxxxxx xxxx xxx xxx xxxx xxxxxxx-xxxx
xxxxxxxxxxx, xx xxx xxxxxxxxx xxxx xxx xxxxxx xxxxx xx xxxxxxxx xxxxxxx xxxx
xxxxxxxxxxxxx xx xxx xxxxx xxx xxxx xxxxxxxxxxx xxxxxxxx xxxxxxxxxxxxxxx.




10
     Handbook AS-805, Chapter 4, Security Risk Management, Section 4-3, Information Resource Risk Management.




                                                       11
Intelligent Mail Barcode Project Planning                   IS-AR-09-006
 and Application Development Life Cycle


                        APPENDIX C: MANAGEMENT’S COMMENTS




                                            12
Intelligent Mail Barcode Project Planning        IS-AR-09-006
 and Application Development Life Cycle




                                            13
Intelligent Mail Barcode Project Planning        IS-AR-09-006
 and Application Development Life Cycle




                                            14
